No. 20-222
In the Supreme Court of the United
__________________

States

GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

__________________

BRIEF OF AMICI CURIAE SECURITIES AND
FINANCIAL MARKETS ASSOCIATION, BANK
POLICY INSTITUTE, AMERICAN BANKERS
ASSOCIATION, AND U.S. CHAMBER OF
COMMERCE IN SUPPORT OF PETITIONERS

__________________

Jonathan K. Youngwood
Counsel of Record
Craig S. Waldman
Joshua Polster
Daniel Owsley
SIMPSON THACHER &
BARTLETT LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com
Gregg Rozansky
BANK POLICY INSTITUTE
600 13th Street, NW
Washington, DC 20005

Ira D. Hammerman
Kevin Carroll
SECURITIES INDUSTRY AND
FINANCIAL MARKETS ASSOCIATION
1101 New York Ave., N.W.
Washington, D.C. 20005
Steven P. Lehotsky
Jonathan Urick
U.S. CHAMBER OF COMMERCE
1615 H Street, NW
Washington, DC 20062-2000
Dawn Causey
AMERICAN BANKERS ASSOCIATION
1120 Connecticut Avenue NW
Washington, DC 20036

Counsel for Amici Curiae
September 24, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

THE CHALLENGED STATEMENTS IN
THIS
CASE
ARE
GENERAL,
ASPIRATIONAL, AND UBIQUITOUS IN
THE MARKETPLACE . . . . . . . . . . . . . . . . . . 4

II.

A COURT SHOULD BE PERMITTED TO
CONSIDER THE NATURE OF THE
ALLEGED MISREPRESENTATIONS
WHEN EVALUATING WHETHER THE
DEFENDANT HAS REBUTTED THE
BASIC PRESUMPTION . . . . . . . . . . . . . . . . . 9

III.

THE SECOND CIRCUIT’S DECISION WILL
RESULT IN UNWARRANTED CLASS
LITIGATION
IN
INFLATION
MAINTENANCE THEORY CASES . . . . . . . 12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ii
TABLE OF AUTHORITIES
CASES
Basic Inc. v. Levinson,
485 U.S. 224 (1988). . . . . . . . . . . . . . . . . . . passim
Castano v. Am. Tobacco Co.,
84 F.3d 734 (5th Cir. 1996). . . . . . . . . . . . . . . . . 14
City of Pontiac Policemen’s & Firemen’s Ret. Sys.
v. UBS AG, 752 F.3d 173 (2d Cir. 2014) . . . . . . . 8
Comcast Corp. v. Behrend,
569 U.S. 27 (2013 ) . . . . . . . . . . . . . . . . . . . . . . . 11
ECA, Local 134 IBEW Joint Pension Trust of
Chicago v. JP Morgan Chase Co.,
553 F.3d 187 (2d Cir. 2009) . . . . . . . . . . . . . . . 7, 8
Epic Systems Corp. v. Lewis,
138 S.Ct. 1612 (2018) . . . . . . . . . . . . . . . . . . . . . 15
Erica P. John Fund, Inc. v. Halliburton Co.,
309 F.R.D. 251 (N.D. Tex. 2015) . . . . . . . . . . . . 14
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014). . . . . . . . . . . . . . . . . . . passim
Hevesi v. Citigroup Inc.,
366 F.3d 70 (2d Cir. 2004) . . . . . . . . . . . . . . . . . 14
IBEW Local 98 Pension Fund v. Best Buy Co.,
818 F.3d 775 (8th Cir. 2016). . . . . . . . . . . . . 13, 14
Indiana State Dist. Council of Laborers & Hod
Carriers Pension & Welfare Fund v.
Omnicare, Inc., 583 F.3d 935 (6th Cir. 2009) . . . 7

iii
Shady Grove Orthopedic Associates, P.A. v. Allstate
Ins. Co., 559 U.S. 393 (2010) . . . . . . . . . . . . . . . 15
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011). . . . . . . . . . . . . . . . . . . . . . . 11
OTHER AUTHORITIES
Cornerstone Research, Securities Class Action
Filings 2019 Year in Review (2020),
https://www.cornerstone.com/Publications/Rep
orts/Securities-Class-Action-Filings-2019-Yearin-Review. . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 15
U.S. Chamber Institute for Legal Reform,
Containing the Contagion: Proposals to Reform
the Broken Securities Class Action System 10
(February 2019), https://www.instituteforlegal
reform.com/uploads/sites/1/Securites-Class-Act
ion-System-Reform-Proposals.pdf . . . . . . . . . . . 15

1
INTEREST OF AMICI CURIAE1
The Securities Industry and Financial Markets
Association (“SIFMA”) is a securities industry trade
association representing the interests of hundreds of
securities firms, banks, and asset managers. Its
mission is to support a strong financial industry, while
promoting investor opportunity, capital formation, job
creation, economic growth, and trust and confidence in
the financial markets. SIFMA is the United States
regional member of the Global Financial Markets
Association.
The Bank Policy Institute is a nonpartisan public
policy, research, and advocacy group, representing the
nation’s leading banks and their customers. BPI’s
members include universal banks, regional banks, and
the major foreign banks doing business in the United
States. Collectively, BPI’s members employ almost two
million Americans, make nearly half of the nation’s
small business loans, and are an engine of financial
innovation and economic growth.
American Bankers Association (the “ABA”) is the
principal national trade association of the financial
services industry in the United States. Founded in
1875, the ABA is the voice for the nation’s $13 trillion
1

Pursuant to Rule 37.6, Counsel for amici represent that they
authored this brief in its entirety and that none of the parties nor
their counsel, nor any other person or entity other than amici,
their members or their counsel have made a monetary contribution
intended to fund the preparation of submission of this brief.
Counsel of record provided timely notice of the intent to file this
amicus brief pursuant to Rule 37.2 and both parties have
consented to the filing.

2
banking industry and its million employees. ABA
members are located in each of the fifty States and the
District of Columbia, and include financial institutions
of all sizes and types, both large and small.
The Chamber of Commerce of the United States of
America (the “Chamber” and, together with SIFMA,
BPI, and the ABA, the “Amici”) is the Nation’s largest
business federation.
It directly represents
approximately 300,000 members and indirectly
represents the interests of approximately 3 million
business, trade, and professional organizations of every
size, in every sector, and from every region of the
United States. Many of the Chamber’s members are
companies subject to the U.S. securities laws who
would be adversely affected if the majority’s decision is
not corrected.
The Amici have a substantial interest in the issues
presented in the petition. The precedent set below by
the Second Circuit is contrary to this Court’s guidance
with respect to the ability of defendants to rebut the
presumption of classwide reliance at the class
certification stage; threatens unwarranted class
litigation for securities plaintiffs proceeding under an
inflation maintenance theory; and could subject the
Amici’s membership to runaway class certification
regardless of the merit of claims.

3
SUMMARY OF ARGUMENT
This case presents questions of importance to the
Amici’s members. If left to stand, the decision below
threatens to make the presumption established in
Basic Inc. v. Levinson, 485 U.S. 224 (1988) effectively
unrebuttable, and to burden companies and their
shareholders with meritless claims based on generic
statements which have no price impact.
The Plaintiffs in this case allege that generic,
aspirational statements contained in Goldman Sachs
Group, Inc.’s (“Goldman’s”) public filings—such as
“[o]ur clients’ interests always come first”—misled the
market and artificially maintained an inflated price for
Goldman’s stock. The Second Circuit majority held
that it could not consider the general and aspirational
nature of the challenged statements in assessing
whether Defendants had met their burden under Basic
to show the alleged misstatements did not affect stock
price. This holding contradicts this Court’s precedent
that a court may not “artificially limit” the evidence to
be considered at class certification. Halliburton Co. v.
Erica P. John Fund, Inc., 573 U.S. 258, 283 (2014)
(Halliburton II). As explained by Judge Sullivan in
dissent, when assessing price impact, the statements
themselves cannot be ignored. A court should be “free
to consider the alleged misrepresentations in order to
assess their impact on price.” App. 45a.
Should the decision below stand, it risks leading to
liability for countless companies including members of
the Amici that also make general, aspirational
statements that could be converted into inflationmaintenance claims following any negative corporate

4
announcement causing a stock price drop.
If
defendants are not provided a legitimate opportunity to
rebut the Basic presumption, including by reference to
the alleged fraudulent statements at issue, there is a
substantial risk of unwarranted class certification,
even on meritless claims, leading to potential runaway
liability and mounting financial pressure for companies
and their shareholders to pay on claims brought by
plaintiffs who have suffered no loss.
ARGUMENT
I.

THE CHALLENGED STATEMENTS IN THIS
CASE ARE GENERAL, ASPIRATIONAL,
AND UBIQUITOUS IN THE MARKETPLACE

Plaintiffs proceed on the “inflation maintenance”
theory—something never previously endorsed by this
Court. Plaintiffs argue that Goldman made certain
false statements in its Annual Reports and Form 10-Ks
published between 2007 and 2010. As Plaintiffs
concede, Goldman’s stock price did not increase as a
result of these statements. However, Plaintiffs posit
that the statements maintained Goldman’s stock price
at artificially inflated levels until the stock dropped in
2010 following the filing of an SEC complaint against
Goldman regarding the Paulson & Co. hedge fund’s role
in a collateralized debt obligation transaction, and
news reports of possible additional federal
investigations.
The alleged misrepresentations Plaintiffs cite to
support their inflation maintenance theory do not
concern collateralized debt obligations or Paulson & Co.
Indeed, they do not refer to any particular transaction,

5
product line, procedure, or practice. Rather, they are
vague, generic, and aspirational.
Many of the statements are general descriptions in
the “Business Principles” section of Goldman’s Annual
Reports. Examples include:
• “We are dedicated to complying fully with the
letter and spirit of the laws, rules and ethical
principles that govern us. Our continued
success depends upon unswerving adherence
to this standard. . . .”
• “Integrity and honesty are at the heart of our
business. . . .”
• “Our clients’ interests always come first. Our
experience shows that if we serve our clients
well, our own success will follow. . . .”
App., 63a.
The other challenged statements are contained in
the “Risk Factors” section of Goldman’s Form 10-K
filings. Like the business principles statements, the
risk factors statements are general and aspirational.
They do not refer to any particular conflicts or conflict
avoidance procedures and also make no guarantee that
Goldman will be able to avoid or resolve all conflicts of
interest. Examples include:
• “Conflicts of interest are increasing and a
failure to appropriately deal with conflicts of
interest could adversely affect our
businesses. Our reputation is one of our
most important assets. As we have expanded

6
the scope of our businesses and our client
base, we increasingly have to address
potential conflicts of interest . . . .”
• “We have extensive procedures and controls
that are designed to address conflicts of
interest . . . .”
C.A. App., 5043.
Statements similar to Defendants’ are ubiquitous.
They are made by companies innumerable, including
among the Amici’s membership. Companies publish
general, aspirational statements like Defendants’ for a
variety of reasons, including to motivate employees and
affirm organizational culture. C.A. App. 5036. Such
statements communicate an organization’s goals and
principles to key stakeholders, including customers,
employees, and investors. C.A. App. 5041.
Examples of similar statements made by large
financial institutions and Fortune 500 firms abound,
including the following:
• “Our brand and reputation are key assets of
our Company.”
• “Our . . . reputation and experience are
among this company’s strongest advantages.”
• “Our reputation is one of our most important
assets.”
• “Our continued success is substantially
dependent on . . . the reputation we have
built over many years . . . .”

7
• “[Our] success is based on creating
innovative, high-quality products and
services and on demonstrating integrity in
every business interaction.”
• “[W]e believe our success depends on
maintaining the highest ethical and moral
standards everywhere we operate. That
focus on integrity starts at the top.”
• “Our actual or perceived failure to address
various issues could give rise to reputational
risk that could harm us or our business
prospects. These issues include but are not
limited to, appropriately addressing potential
conflicts of interest . . . .”
• “Management of potential conflicts of
interests has become increasingly complex as
we expand our business activities through
more numerous transactions, obligations and
interests with and among our clients.”
• “Our businesses depend on our strong
reputation and the value of [our] brand.”
C.A. App. 5047-51; see also Indiana State Dist. Council
of Laborers & Hod Carriers Pension & Welfare Fund v.
Omnicare, Inc., 583 F.3d 935, 944 (6th Cir. 2009)
(“vague” and “loosely optimistic” affirmations are
“ubiquitous” and “numbingly familiar in the
marketplace”); ECA, Local 134 IBEW Joint Pension
Trust of Chicago v. JP Morgan Chase Co., 553 F.3d
187, 206 (2d Cir. 2009) (statements about defendant’s
integrity and risk management were “so general” that
“[n]o investor would take such statements seriously in

8
assessing a potential investment, for the simple fact
that almost every investment bank makes these
statements”).
Because the statements challenged by Plaintiffs are
general, aspirational, and ubiquitous, they are, on their
face, unlikely to have price impact. Investors do not
consider them when buying and selling stock. See C.A.
App. 5071 (Defendants’ expert examining hundreds of
statements similar to Goldman’s made by public
companies and concluding general statements of this
kind are not pertinent to investors making investment
decisions). See also, e.g., ECA, Local 134 IBEW Joint
Pension Trust of Chicago v. JP Morgan Chase Co., 553
F.3d 187, 206 (2d Cir. 2009) (The statement that
defendant “set the standard for best practices in risk
management techniques . . . is so general that a
reasonable investor would not depend on it as a
guarantee that [defendant] would never take a step
that might adversely affect its reputation.”) (internal
quotation marks omitted); City of Pontiac Policemen’s
& Firemen’s Ret. Sys. v. UBS AG, 752 F.3d 173, 183 (2d
Cir. 2014) (“[G]eneral statements about reputation,
integrity, and compliance with ethical norms are
inactionable”).

9
II.

A COURT SHOULD BE PERMITTED TO
CONSIDER THE NATURE OF THE
ALLEGED MISREPRESENTATIONS WHEN
EVALUATING
WHETHER
THE
DEFENDANT HAS REBUTTED THE BASIC
PRESUMPTION

In Basic Inc. v. Levinson, 485 U.S. 224 (1988), this
Court recognized that in certain circumstances
plaintiffs bringing a securities fraud claim are entitled
to a presumption of reliance based on the theory that
the prices at which investors bought and sold securities
will reflect all publicly available information including
any material misrepresentations. The Basic
presumption is rebuttable. As stated in Halliburton II,
573 U.S. at 284, defendants “must be afforded an
opportunity to rebut” the Basic presumption “through
evidence that an alleged misrepresentation did not
actually affect the market price of the stock.” Thus, as
applied to Plaintiffs inflation maintenance theory, a
court is to consider at the class certification stage
whether the evidence provided by defendant severs the
link between the statements alleged to have
maintained an inflated share price and the share price
itself.
To rebut the Basic presumption, Defendants
presented substantial evidence showing that the
alleged misrepresentations did not maintain an
inflated share price. Defendants’ expert identified 36
news reports publicizing the existence and risk of
conflicts of interest before any of the 2010 alleged
corrective disclosure dates.
If the challenged
statements regarding Goldman’s business principles

10
and conflicts procedures were artificially maintaining
an inflated share price, then these news reports would
have caused drops in Goldman’s share price. But none
of these news reports had any price impact.
An additional expert for Defendants presented an
event study demonstrating that Goldman’s 2010 stock
price drop did not statistically differ from other
companies’ stock drops following announcements of
enforcement actions. This evidence shows that the
2010 stock drop was due to the news that the
government was investigating Goldman and bringing
an enforcement action; not due to the alleged revelation
of misstatements.
This conclusion is reinforced by the statements
themselves. The vague, general, and aspirational
nature of the statements suggests that no reasonable
investor would consider them when buying and selling
stock. As explained by Judge Sullivan in his dissent:
“Candidly, I don’t see how a reviewing court can ignore
the alleged misrepresentations when assessing price
impact. Here, the obvious explanation for why the
share price didn’t move after 36 separate news stories
on the subject of Goldman’s conflicts is that no
reasonable investor would have attached any
significance to the generic statements on which
Plaintiffs’ claims are based.” App., 45a.
The majority’s decision, however, would bar courts
from considering the nature of the alleged
misstatements in assessing whether defendants rebut
the Basic presumption. The Second Circuit reasoned
that a court cannot consider the nature of the alleged
misstatements when analyzing their price impact

11
without veering too closely into a materiality review
that is inappropriate at the class certification stage.
But this is not so. As Judge Sullivan noted, a “rigid
compartmentalization” of the price impact and merits
analyses is neither possible nor required by Amgen or
Halliburton II. App., 45a. It is “fair for [a] court to
consider the nature of the alleged misstatements in
assessing whether and why the misrepresentations did
not in fact affect the market price of Goldman stock.”
App., 44a (internal quotation marks omitted).
That materiality is a question for the merits stage
rather than the class certification stage does not mean
that evidence relevant to price impact which may also
be relevant to materiality at the merits stage must be
ignored. This Court has repeatedly made clear that the
mere fact that evidence may be relevant at the merits
stage is not reason to exclude it from consideration at
the Rule 23 phase. In Halliburton II the Court was
faced with the question of whether direct evidence that
the statements had no price impact could be considered
at the class certification stage, even though such
evidence could also be before the court at the merits
stage. The Court held that such evidence could be
considered and that the class certification inquiry
should not be “artificially limit[ed].” 573 U.S. at 283.
In Comcast this Court implored courts to “determin[e]
that Rule 23 is satisfied, even when that requires
inquiry into the merits of the claim,” Comcast Corp. v.
Behrend, 569 U.S. 27, 35 (2013 ), and in Wal-Mart this
Court further explained that a class certification
analysis may “entail some overlap with the merits of
plaintiff’s underlying claim.” Wal-Mart Stores, Inc. v.
Dukes, 564 U.S. 338, 351 (2011).

12
The same principle applies to the consideration of
the generic nature of the statements themselves when
assessing evidence of those statements’ price impact.
A court must not be required to close its eyes and
pretend not to read the misstatements that are alleged
to have misled the market and maintained an inflated
stock price, when considering precisely that: whether
the statements had an impact on the stock price. To
hold otherwise is to require a court to divorce other
price impact evidence of critical context and would
impose an artificial limitation on evidence of price
impact in contravention of Halliburton II. Here, the
generic nature of the challenged statements should
have been considered as part of the total mix of price
impact evidence presented by Defendants.
The Amici agree with Judge Sullivan, who found
that “[o]nce a defendant has challenged the Basic
presumption and put forth evidence demonstrating
that the misrepresentation did not affect share price, a
reviewing court is free to consider the alleged
misrepresentations in order to assess their impact on
price. The mere fact that such an inquiry ‘resembles’
an assessment of materiality does not make it
improper.” App., 45a.
III.

THE SECOND CIRCUIT’S DECISION WILL
RESULT IN UNWARRANTED CLASS
LITIGATION IN INFLATION MAINTENANCE
THEORY CASES

The artificial application of judicial blinders at the
class certification stage in the Second Circuit, as
required by the decision below, threatens the Amici’s
membership with unwarranted class litigation. This

13
case provides a blueprint for enterprising Plaintiffs
(and their lawyers) to use everyday occurrences as grist
for price maintenance claims. After economically
significant news, such as a company falling short of its
earnings targets, an unfavorable business development
or the announcement of enforcement activity against it,
a company’s stock price may drop. Following this price
decline, as they presumably did in this case, plaintiffs
will review years of public filings made by the company
to select statements vague and generic enough to
conceivably cover the cause for the stock decline, such
“[o]ur reputation is one of our most important assets”
or “[w]e are dedicated to complying fully with the letter
and spirit of the laws, rules and ethical principles that
govern us.” Armed with these statements and a
subsequent stock price drop, Plaintiffs can try to allege
without any evidence that the statements served to
maintain an artificially inflated stock price, in order to
obtain class certification. Thus, the decision below
threatens to financially burden company shareholders
with paying claims to plaintiffs who have suffered no
loss.
The situation for defendants in the Second
Circuit—the country’s most active Circuit for securities
litigation2—is particularly dire because the Second
Circuit has previously held that defendants bear the
burden at class certification to show no price impact.
This precedent conflicts with IBEW Local 98 Pension
Fund v. Best Buy Co., 818 F.3d 775, 782 (8th Cir. 2016)
2

See Cornerstone Research, Securities Class Action Filings 2019
Year in Review, 38 (2020), https://www.cornerstone.com/Publications
/Reports/Securities-Class-Action-Filings-2019-Year-in-Review.

14
where the Eighth Circuit made clear that while
defendants bear a burden of production in rebutting
Basic, the burden of persuasion to show price impact
ultimately remains with the plaintiffs. 818 F.3d 775,
782 (8th Cir. 2016) (applying Fed. R. Evid. 301 to the
Basic presumption).
This is all the more significant as the inflation
maintenance theory gains prominence in securities
litigation. The decision below noted that in the wake
of Halliburton II, more than two-thirds of securities
fraud plaintiffs in federal district courts invoked the
inflation-maintenance theory when defendants tried to
rebut the Basic presumption. In nearly every case, the
court held that defendant failed to rebut the
presumption.3
Although a class would ultimately have to
withstand a motion for summary judgment and prove
its case at trial, these burdens cannot be relied on to
save defendant companies and their shareholders from
paying out meritless claims. Once a class is certified,
defendants often face “hydraulic pressure” to settle and
“avoid[] the risk, however small, of potentially ruinous
liability.” Hevesi v. Citigroup Inc., 366 F.3d 70, 80 (2d
Cir. 2004); Castano v. Am. Tobacco Co., 84 F.3d 734,
746 (5th Cir. 1996) (“The risk of facing an all-ornothing verdict presents too high a risk, even when the
probability of an adverse judgment is low.”). This
3

The only two decisions in which a court has found defendants
rebutted the Basic presumption are the district court’s decision
upon remand from the Supreme Court in Halliburton II itself,
Erica P. John Fund, Inc. v. Halliburton Co., 309 F.R.D. 251, 270
(N.D. Tex. 2015), and Best Buy Co., 818 F.3d at 783.

15
Court has recently acknowledged that it is “well known
that [class actions] can unfairly ‘plac[e] pressure on the
defendant to settle even unmeritorious claims.’” Epic
Systems Corp. v. Lewis, 138 S.Ct. 1612, 1632 (2018)
(citing Shady Grove Orthopedic Associates, P.A. v.
Allstate Ins. Co., 559 U.S. 393, 445, n. 3, (2010)
(Ginsburg, J., dissenting)). Studies indicate that less
than 1 percent of securities class action filings are
litigated to a verdict. Cornerstone Research, Securities
Class Action Filings 2019 Year in Review, 16 (2020),
https://www.cornerstone.com/Publications/Reports/Se
curities-Class-Action-Filings-2019-Year-in-Review.
Event-driven securities class actions such as this one
are on the rise, and they frequently “remain viable”
despite weakness on the merits “because the potential
damages are often very high.” U.S. Chamber Institute
for Legal Reform, Containing the Contagion: Proposals
to Reform the Broken Securities Class Action System
10 (February 2019), https://www.instituteforlegalreform
.com/uploads/sites/1/Securites-Class-Action-System-R
eform-Proposals.pdf (internal quotation marks
omitted).
The implication of this holding is therefore that
companies, including the Amici’s membership, will be
exposed to runaway class litigation regardless of the
merit of claims, as the inflation maintenance theory
becomes ever more widespread. Where the nature of
the alleged misstatements cannot be considered at the
class certification stage—and where the other evidence
presented by Defendants is found insufficient—it is
difficult to see what could stand in the way of class
certification following any substantial decrease in a
company’s stock price. In spite of the Court’s clear

16
guidance in Halliburton II that the Basic presumption
may be rebutted with evidence of no price impact, even
if such evidence is also relevant to the merits, the
Second Circuit’s decision threatens to render the
rebuttable presumption of classwide reliance
unrebuttable.
CONCLUSION
The Court should grant the Petition for a Writ of
Certiorari.
Respectfully submitted,
Jonathan K. Youngwood
Counsel of Record
Craig S. Waldman
Joshua Polster
Daniel Owsley
SIMPSON THACHER &
BARTLETT LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com
Gregg Rozansky
BANK POLICY INSTITUTE
600 13th Street, NW
Washington, DC 20005

Ira D. Hammerman
Kevin Carroll
SECURITIES INDUSTRY AND
FINANCIAL MARKETS ASSOCIATION
1101 New York Ave., N.W.
Washington, D.C. 20005
Stephen P. Lehotsky
Jonathan Urick
U.S. CHAMBER OF COMMERCE
1615 H Street, NW
Washington, DC 20062-2000
Dawn Causey
AMERICAN BANKERS ASSOCIATION
1120 Connecticut Avenue NW
Washington, DC 20036

Counsel for Amici Curiae
Dated: September 24, 2020

